January 24, 2011

STEVEN R. PHELPS
MANAGER, SOX MANAGEMENT CONTROLS AND INTEGRATION

SUBJECT: Interim Management Advisory – Fiscal Year 2011 Financial Testing
         Compliance Oversight Reviews – Miami Plant Verified Drop Shipment –
         Miami, FL (Report Number FF-MA-11-007)

This report presents interim results for the U.S. Postal Service Office of Inspector
General’s (OIG) fiscal year (FY) 2011 review of the U.S. Postal Service Financial
Testing Compliance (FTC) group’s Plant Verified Drop Shipment (PVDS) testing at the
Miami General Mail Facility, Miami, FL (Project Number 11BR002FF003), performed
December 13, 2010. The Miami GMF is in the South Florida District of the Southwest
Area. At the conclusion of FY 2011, we will summarize the results for all reviews in
reports to Postal Service Headquarters.

To comply with Section 404 Sarbanes-Oxley (SOX) Act of 2002 requirements, the
Postal Service must report on the effectiveness of the agency’s internal controls to
ensure accurate financial reporting. It must submit an annual assessment to the Postal
Regulatory Commission (PRC), which monitors and manages the Postal Service’s
compliance with SOX. The Postal Service established the Financial Control and Support
group to oversee the work of the FTC group, which conducts tests of key financial
reporting controls. Senior Postal Service leaders use the results to identify and correct
internal control deficiencies and report the overall results to the PRC. We conducted this
oversight review in support of the independent public accounting firm’s reliance on
Postal Service management’s testing, and overall audit opinions on the Postal Service’s
financial statements and internal controls over financial reporting.

The overall objective of our review was to evaluate whether FTC analysts properly
conducted and documented their examination of SOX financial reporting controls.

To perform this work, we observed FTC analysts conduct tests and reviewed their
supporting documentation. We performed this review from December 2010 through
January 2011 in accordance with the Quality Standards for Inspections.1

1
  These standards were last issued by the President’s Council on Integrity and Efficiency (PCIE) and the Executive
Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of 1978 as
amended by the IG Reform Act of 2008 created the Council of the Inspectors General on Integrity and Efficiency
(CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not been amended
to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.



                                             Restricted Information
Fiscal Year 2011 Financial Testing Compliance Oversight Reviews –               FF-MA-11-007
 Miami Plant Verified Drop Shipment – Miami, FL



Conclusion

Based on our review of FTC’s work, we determined FTC analysts properly conducted
and documented their examination of key SOX financial reporting controls. See
Appendix A for the results of our review.

The interim FTC oversight review advisories will be issued to the SOX manager in final
format. At the conclusion of the fiscal year, the OIG will summarize the results of all its
FTC oversight reviews and include recommendations, if applicable, in a report to Postal
Service Headquarters. Management will have the opportunity to formally respond to the
summary report at that time.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lavetta Smith, acting manager,
at 404-507-8313, or me at 404-507-8317.

    E-Signed by William Rickett
 VERIFY authenticity with ApproveIt




William F. Rickett
Acting Director, Field Financial – Central

Attachment

cc:     Douglas G. Germer
        Corporate Audit and Response Management




                                                    2
                                         Restricted Information
Fiscal Year 2011 Financial Testing Compliance Oversight Reviews – Miami                       FF-MA-11-007
PVDS – Miami, FL



                                                 APPENDIX A: REVIEW RESULTS

       Site Name                                                 Miami GMF
       Finance Number-Unit ID                                    1158510000
       Location Type                                             PVDS
       Scope Period Under Review                                 October 1- December 12, 2010
       FTC Review Program Version and Date                       Review Topic 29000 11/24/10
       FTC Team                                                  Central




 FTC Review        FTC Review Step/        Did FTC have         Did the OIG       Did FTC        Did FTC       Did the OIG
Step/Control #     Step Description         exceptions/             have        perform the     adequately      agree with
                                          findings in this      exceptions/        step in      document           FTC’s
                                          step? (Yes/No)       findings that    accordance       its work      exceptions/
                                                               FTC did not?         to its      performed    findings (or no
                                                                  (Yes/No)       program?         and the      exceptions/
                                                                                  (Yes/No)       results?       findings)?
                                                                                                 (Yes/No)        (Yes/No)
29001/            Accuracy and                  No                  No                Yes          Yes            Yes
104CA70           Completeness of
                  Postal Service
                  Forms
                  8017/8125s




                                                                        3
                                                             Restricted Information
